               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Statistical Tests for Fiscal Year 2012

               Management Advisory




                                              February 19, 2013

Report Number FT-MA-13-009
                                                                    February 19, 2013

                                               Statistical Tests for Fiscal Year 2012

                                                       Report Number FT-MA-13-009




BACKGROUND:                                WHAT THE OIG FOUND:
The Postal Accountability and              Data collection technicians did not
Enhancement Act of 2006 requires the       always conduct system tests in
U.S. Postal Service to report its annual   accordance with established
revenue and mail volume to the Postal      procedures. We identified 22 test errors
Regulatory Commission. The Postal          in 13 of 45 tests observed. Specifically,
Service’s Origin-Destination Information   data collection technicians did not
System-Revenue, Pieces, and Weight         always:
system is the primary system for
collecting revenue, volume, and weight        Correctly enter and verify all data
data for most classes of mail and extra        entered into their laptop computer.
services.                                     Follow and apply the appropriate test
                                               mail sampling methodology.
The Postal Service uses system data to        Label test mail to ensure it was
develop new postage rates, conduct             isolated from mail processing until
management studies, assist in budget           the test was completed.
preparation, and support decisions            Properly identify, isolate, and capture
concerning mail operations. In addition,       test mail.
the Postal Service’s independent public       Protect their laptop computer.
accounting firm uses this data and the
underlying test results to support the     These issues contributed, in part, to the
financial statement audit.                 Postal Service's conclusion that a
                                           significant internal control deficiency
This system’s data is the result of the    related to data collection sampling
work of Postal Service data collection     procedures existed as of September 30,
technicians. They observe employee         2012.
work activity, sample live mail, and
collect data at randomly selected sites;   WHAT THE OIG RECOMMENDED:
record the information on laptop           We recommended management
computers; and transmit it for review.     reinforce, through training, proper data
                                           collection methods to ensure test mail is
Our objective was to determine whether     identified, isolated, and captured during
the Postal Service conducted statistical   testing. We also recommended they
mail tests in accordance with              reinforce the importance of protecting
established policies and procedures.       data collection laptop computers.

                                           Link to review the entire report
February 19, 2013

MEMORANDUM FOR:             JOSEPH D. MOELLER
                            MANAGER, REGULATORY REPORTING AND COST
                            ANALYSIS




FROM:                       John E. Cihota
                            Deputy Assistant Inspector General
                             for Financial and Systems Accountability

SUBJECT:                    Management Advisory – Statistical Tests for Fiscal
                            Year 2012 (Report Number FT-MA-13-009)

This report presents the results of our review of Statistical Tests for Fiscal Year 2012
(Project Number 12BD013FI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice M. Millett, director,
Finance, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Julie S. Moore
    J. Ronald Poland
    Brad Pafford
    Deborah Giannoni-Jackson
    Corporate Audit and Response Management
Statistical Tests for Fiscal Year 2012                                                                             FT-MA-13-009




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Repeat Test Errors .......................................................................................................... 2

Other Observations ......................................................................................................... 4

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Detailed Analysis ........................................................................................ 9

Appendix C: Management's Comments ........................................................................ 12
Statistical Tests for Fiscal Year 2012                                                                FT-MA-13-009




Introduction

This report presents the results of our review of Statistical Tests for Fiscal Year (FY)
2012 (Project Number 12BD013FI000). The objective of our review was to determine
whether the U.S. Postal Service conducted statistical Origin-Destination Information
System-Revenue, Pieces, and Weight (ODIS-RPW) tests to collect revenue and volume
data in accordance with established policies and procedures. The report addresses
financial risk. We reviewed tests of the ODIS-RPW and conducted this work in support
of the audit of the Postal Service’s financial statements.1 This review addresses
financial risk. See Appendix A for additional information about this review.

ODIS-RPW is the primary probability sampling system that estimates revenue, volume,
and weight for most classes of mail and extra services. Management uses test data to
develop new rates, assist in budget preparation, conduct management studies, and
support management decisions concerning mail operations. Data collection technicians
(data collectors) observe employee work activity, sample live mail, and collect data at
randomly selected sites; record the information on laptop computers; and transmit it for
review. The data collectors record various mailpiece characteristics, such as revenue,
weight, shape, indicia, barcode, postmark time, origin, and mail class. The Postal
Service also relies on statistical programs’ sample data for revenue protection and to
estimate stamp usage in the calculation of Postage in the Hands of the Public (PIHOP).2

Conclusion

The Postal Service did not always follow established data collection policies and
procedures. We identified 22 errors in 13 of 45 tests observed.3 Although we found a
decrease in the number of tests with errors over the previous year, our review indicated
continued noncompliance with prescribed policies and procedures previously reported
in our FY 2011,4 2010,5 and 20096 reports. These errors included incorrectly entering
and improperly verifying data entered into data collection laptop computers, using an
inappropriate test mail sampling methodology, incorrectly labeling the test mail that was
to be kept isolated from mail processing until the test was completed, improperly
identifying test mail, and not taking the proper precautions to protect the data collection
laptop computer. Noncompliance was primarily due to data collectors overlooking
critical data entry errors and applying the incorrect sampling methodology.



1
  This report does not present the results of audit work required under the Postal Accountability and Enhancement
Act of 2006 (Postal Act of 2006).
2
  The process of deferring the recognition of revenue for postage purchased but for which services have not yet been
provided.
3
  These errors occurred in seven of 10 districts reviewed.
4
  Audit of Statistical Tests for Fiscal Year 2011 (Report Number FF-AR-11-168, dated September 29, 2011).
5
  Audit of Statistical Tests for Fiscal Year 2010 (Report Number FF-AR-10-222, dated September 14, 2010).
6
  Audit of Statistical Tests for Fiscal Year 2009 (Report Number FF-AR-10-015, dated November 20, 2009).
                                                            1
Statistical Tests for Fiscal Year 2012                                                                    FT-MA-13-009



As a result, these continued noncompliance issues contributed, in part,7 to the
Postal Service determining that a significant internal control deficiency existed related to
data collection sampling procedures as of September 30, 2012.

Repeat Test Errors

Over the past 3 fiscal years, we have identified the same test error types in our annual
statistical programs capping reports (see Table 3 in Appendix B for a detailed analysis).
Although these error types have decreased from last year, we continued to observe
them. Test errors this fiscal year included data collectors who did not always:

   Enter and verify data entered into laptop computers (nine errors). As data from a
    mailpiece is entered into the laptop computer system, a record of each entry
    appears on the right side of the screen. After all the data for the mailpiece has been
    entered, the data collector must verify that the keyed information is correct by
    answering questions prompted by the ODIS-RPW software system.8 Specifically, we
    identified errors related to data collectors not correctly entering the:

    o    Year for Forever Stamps (two errors).
    o    Mailpiece ZIP Code (two errors).
    o    Mailpiece skip interval9 (two errors).
    o    Mail type, such as library mail versus media mail (two errors).
    o    Date on a mailpiece (one error).

    In most instances, data collectors stated the errors were due to an oversight. In one
    instance, the data collector stated they could not locate their hard copy of the
    Forever Stamp Reference Guide and, as a result, was not sure what information to
    enter into the laptop.

   Apply and follow the approved sampling methodology10 to identify mailpieces and/or
    containers and the random start number for testing (seven errors). A data collector
    must select the required mailpieces by applying the mailpiece skip interval to all
    selected mailpieces and to containers using the container skip interval.11 In most
    instances, data collectors did not always:

    o Select the correct mailpiece for testing when performing the skip interval count
      (five errors).




7
  Data collector testing errors were only one of the factors that contributed to the Postal Service's conclusion that a
significant deficiency existed.
8
  Handbook F-75, Data Collection User’s Guide for Reference, Volume, and Performance Measurement System,
Section 3.9, pages 3-65, October 2003.
9
  A method of selecting samples from a larger population according to a random starting point and a fixed, periodic
interval. Typically, every "nth" member is selected from the total population for inclusion in the test sample population.
10
   Handbook F-75, Section 3.7.2.4.
11
   Handbook F-75, Section 3.7.2.4.

                                                            2
Statistical Tests for Fiscal Year 2012                                              FT-MA-13-009



       o Use the correct random start number when selecting containers and mailpieces
         to sample (one error).

       o Apply the mailpiece skip interval after adjusting the skip interval between mail
         deliveries (one error).

      Data collectors stated the errors were due to an oversight in counting the mailpieces
      and, in one instance, the data collector stated they forgot he had made an interval
      adjustment. When data collectors do not properly apply mailpiece and container skip
      intervals correctly, the Postal Service’s ability to accurately estimate postal rates and
      mail volume is at risk.

     Use marking labels to reduce the risk of double counting and ensure that all
      mailpieces required for the test were isolated from mail processing until the test was
      completed (three errors). Data collectors must use marking labels to mark trays, bins,
      and all containers to be tested.12 In one instance, the data collector stated the error
      was due to an oversight. Another data collector stated he did not use marking labels
      because there were no mail carriers at the unit during testing so he did not believe
      anyone would move the mail during the test. When data collectors do not follow
      ODIS-RPW test procedures, management’s ability to accurately estimate postal rates
      and mail volume is at risk.

      Identify, isolate, and capture mail to be tested (three errors). For example, data
       collectors:

       o Included a tray of mail they should have excluded (one error).
       o Excluded mail from the test they should have included (two errors).

       The data collector is responsible for identifying, isolating, counting, sampling, and
       recording the necessary mailpieces.13 In one instance, the data collector stated that
       he did not see the parcels to include in the test and, in another instance, the data
       collector stated that, although she included mail she should have excluded, she
       would have eventually noticed that the mail should not have been tested and
       excluded it at that point. In another test, the data collector stated that he set the
       mailpieces aside to enter them and then forgot he had set them aside. When
       employees do not follow testing procedures for properly including or excluding
       mailpieces, there is an increased risk that reported revenue and mail volume will not
       be accurate.

During our FY 2011 statistical tests review, we found the average data collector’s
statistical sampling experience for those we observed was 10 years. Although we did
not collect data collection level of experience this year, we did determine that each of
the 36 data collectors we observed was a full-time data collector. We did not observe
any part-time data collectors.

12
     Handbook F-75, Chapter 3, pages 3-6.
13
     Handbook F-75, Chapter 3, pages 3-207.

                                                 3
Statistical Tests for Fiscal Year 2012                                                             FT-MA-13-009



Other Observations

We also observed data collectors in two districts who did not follow procedures for
protecting data collection equipment. Specifically, the data collectors did not place their
laptop computers into hibernation mode or lock the keyboard when their laptops were
unattended. Data collectors must preserve the integrity of test data by employing
security measures when laptops are unattended.14 In one instance, the data collector
stated he did not hibernate or lock the keyboard when his laptop was unattended
because of an oversight, and another data collector believed it was not necessary to
lock his laptop since he was working in isolation in the break room. Collected data could
be lost or compromised when employees do not protect their computer laptops.

Recommendations

We recommend the manager, Regulatory Reporting and Cost Analysis, direct the
manager, Statistical Programs, to:

1. Require district managers, Financial Programs Compliance, to reinforce, through
   individualized and quarterly training, sampling methodology policies and procedures,
   the requirement to use marking labels during testing, and the need to protect data
   collection equipment to preserve data integrity.

2. Require district managers, Financial Programs Compliance, to certify that all data
   collectors in districts with errors identified in this report have received remediated
   individual and quarterly training.

Management’s Comments

Management agreed with the findings and recommendations in this report. Regarding
recommendation 1, management prepared training modules that address sampling
methodology policies and procedures, use of marking labels during testing, and the
necessity of protecting data collection equipment. In addition, they directed Financial
Programs Compliance (FPC) managers to use these modules for individualized training.
Also, the managers will train data collectors and document this training in the Learning
Management System. Data collectors who are unable to demonstrate 100 percent
proficiency will receive individualized training from subject matter experts. Subsequent
discussions with management identified that these actions are scheduled for completion
by March 31, 2013.

Regarding recommendation 2, management issued a policy that requires FPC
managers to complete a process review within 3 months of the finding on any data
collector identified in a U.S. Postal Service Office of Inspector General (OIG) or
Sarbanes-Oxley Act review. Subsequent discussions with management determined that

14
  Handbook F-75, Appendix G-7 (Section IV.F); Handbook F-85, Data Collection User’s Guide for International
Revenue, Volume, and Performance Measurement Systems, Appendix B, Section IV, page B-9; and Statistical
Programs Letter #6, FY 2008, Administration.

                                                        4
Statistical Tests for Fiscal Year 2012                                   FT-MA-13-009



reviews of data collectors identified in our audit would be completed by
February 24, 2013. See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.




                                         5
Statistical Tests for Fiscal Year 2012                                         FT-MA-13-009




                                Appendix A: Additional Information

Background

The Postal Act of 2006 requires the Postal Service to report annual costs, revenue,
volume, and quality of service to the Postal Regulatory Commission. As part of the effort
to achieve this requirement, the Postal Service continually collects information about the
revenue, volume, weight, and cost of the mail. ODIS-RPW is the primary probability
sampling system that estimates revenue, volume, and weight for most classes of mail
and extra services. The Postal Service uses test data to develop new rates, assist in
budget preparation, conduct management studies, and support management decisions
concerning mail operations. Data collectors observe employee work activity, sample live
mail, collect data at randomly selected sites, record the information collected on laptop
computers, and transmit it for review. The data collectors record various mailpiece
characteristics, such as revenue, weight, shape, indicia, barcode, postmark time, origin,
and mail class. The Postal Service also relies on statistical programs sample data for
revenue protection and to estimate stamp usage in the calculation of PIHOP.

The ODIS-RPW test requires data collectors to systematically select mailpieces for
testing using a random start for all mail available on the randomly selected day. Data
collectors record various mailpiece characteristics, such as revenue, weight, shape,
indicia, barcode, postmark time, origin, and mail class. Information collected from tests
is uploaded to the Computerized On-Site Data Entry System Web Base Unit which
resides on the mainframe at the San Mateo, CA Computer Operations Service Center.
Finance uses ODIS-RPW sample data to prepare the Revenue, Pieces, and Weight
report, which is the official summary of postal revenue, volume, and weight.

Management reviews every person involved with collecting statistical programs data to
ensure they are properly performing all processes they regularly execute. A data
collector with less than 1 year of experience in a program is reviewed at least twice
during the first year in that program. A data collector with more than 1 year of
experience in a program is reviewed at least once during the fiscal year that they are in
that program. Local management is responsible for initiating action for any improvement
opportunities noted during the observations. Once a process review is completed, the
reviewer must enter the results in the Process Support and Tracking System. This
system provides reports used to identify training opportunities.

Objective, Scope, and Methodology

The objective of our review was to determine whether the Postal Service conducted
statistical ODIS-RPW tests to collect revenue and volume data in accordance with
established policies and procedures.

To achieve our objective, we judgmentally selected and observed 36 data collectors
select mail to be tested and record various mailpiece characteristics into the data


                                                6
Statistical Tests for Fiscal Year 2012                                        FT-MA-13-009



collection laptop computer system. We observed these data collectors perform
45 ODIS-RPW tests in 10 districts. (See Appendix B for a detailed analysis of our
observations and testing errors by district.) We also interviewed the data collectors
performing the selected tests and district managers of FPC. In addition, we reviewed
the reports for each test that FPC district managers provided.

We conducted this review from May 2012 through February 2013 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We did not assess the reliability of the ODIS-RPW data and
did not rely on that data for the purposes of this report. The Postal Service independent
public accounting firm performs independent testing to assess the Postal Service’s
financial statements and to validate testing results. We discussed our observations and
conclusions with management on January 10, 2013, and included their comments
where appropriate.




                                            7
Statistical Tests for Fiscal Year 2012                                          FT-MA-13-009



Prior Audit Coverage

                                                        Final Report        Monetary
          Report Title              Report Number           Date             Impact
Statistical Tests for Fiscal       FF-MA-11-168          9/29/2011            None
Year 2011
Report Results:
Data collectors did not always follow proper random start and mailpiece/container
skip intervals; verify the information keyed into the laptop computer system;
properly identify, isolate, and capture mail to be sampled/tested; or use marking
labels to identify mail being tested. In addition, data collectors did not conduct the
necessary interviews with facility personnel. Management agreed with the
recommendations.


Statistical Tests for Fiscal      FF-AR-10-222       9/14/2010         None
Year 2010
Report Results:
Data collectors did not always follow proper random start and skip intervals or verify
the information keyed into the data collection laptop computer system. In addition,
data collectors did not always follow procedures for protecting data collection
equipment. Management agreed with the recommendation.

Statistical Tests for Fiscal       FF-AR-10-015        11/20/2009        None
Year 2009
Report Results:
Data collectors did not always follow proper random start and skip intervals, verify
the information keyed into the data collection laptop computer system, or use
marking labels to identify mail being tested. In addition, data collectors did not
always follow procedures for protecting data collection equipment. Management
agreed with the recommendation.




                                             8
Statistical Tests for Fiscal Year 2012                                          FT-MA-13-009




                                    Appendix B: Detailed Analysis

Tables 1, 2, and 3 present information on testing errors identified in each district and a
summary comparison of the conditions reported in our FYs 2011, 2010, and 2009
capping reports.

                   Table 1: Summary of FY 2012 ODIS-RPW Observations
                               and Testing Errors by District

                               Number of
                                 Data               Number of     Total     Number of
                               Collectors             Tests     Number of   Tests with
       District*               Observed             Observed     Errors       Errors
 Atlanta                            5                   7          5            2
 Bay-Valley                         2                   2          4            2
 Colorado/Wyoming                   4                   7          0            0
 Connecticut Valley                 1                   1          1            1
 Dallas                             4                   6          0            0
 Fort Worth                         3                   4          2            1
 Greater Boston                     5                   6          0            0
 Sacramento                         3                   3          2            2
 San Francisco                      2                   2          1            1
 Western
 Pennsylvania                        7                    7         7            4
        Total                       36                   45         22           13
Source: ODIS-RPW checklist for each test during FY 2012.
*The districts shaded in grey had no reported test errors.




                                                         9
Statistical Tests for Fiscal Year 2012                                                                             FT-MA-13-009



       Table 2: Detail of FY 2012 ODIS-RPW Test Errors15 and Observations by District16




                                                                                                                                                                                       Total Test Errors
                                                                   Greater Boston
                                                Atlanta District




                                                                                                                            San Francisco


                                                                                                                                            Dallas District
                                                                    Pennsylvania




                                                                                    Connecticut



                                                                                                  Sacramento




                                                                                                                                                              Fort Worth
                                                                                                               Bay-Valley




                                                                                                                                                                           Colorado/
                                                                                                                                                                           Wyoming
                                                                      Western

                                                                      District

                                                                      District



                                                                                      District


                                                                                                    District



                                                                                                                District



                                                                                                                               District




                                                                                                                                                               District



                                                                                                                                                                            District
                                                                                      Valley
       Test Errors and Other
             Observations
ODIS-RPW
Data collectors did not enter
correctly or verify the information
keyed into the ODIS-RPW
computer.                                       X(3)               X(2)                             X(1)        X(2)                                          X(1)                            9
Data collectors did not follow
procedures or apply the appropriate
random start or mailpiece/container
skip intervals.                                 X(1)               X(5)              X(1)                                                                                                     7
Data collectors did not use marking
labels for trays, bins, and all mail
containers being tested.                        X(1)                                                                        X (1)                             X(1)                            3
Data collectors did not properly
identify, isolate, and capture mail to
be sampled/tested.                                                                                  X(1)        X(2)                                                                     3
Total Test Errors                                                                                                                                                                        22
Other Observation(s)
Data collectors did not follow
procedures to protect data integrity
and data collection equipment.                                                                                                                X(1)            X(1)                            2
Source: OIG analysis.




15
     The numbers of tests errors are shown in parentheses.
16
     One of 10 districts observed had no reported errors.

                                                                          10
 Statistical Tests for Fiscal Year 2012                                                                FT-MA-13-009



             Table 3: Summary of Repeat Testing Errors Previously Reported

                                                                           Number of Testing Errors
 Description of Testing Errors                                       FY        FY         FY         FY
                                                                    2012      2011*      2010*      2009*
 ODIS-RPW – Number of Tests Observed                                 45        65          63        63
 Data collectors did not enter correctly or verify the
                                                                      9           19             5            4
 information keyed into the ODIS-RPW computer.
 Data collectors did not follow procedures or apply the
 appropriate random start and mailpiece/container skip                7           26             5           12
 intervals.
 Data collectors did not use marking labels for trays,
                                                                      3           13             0            4
 bins, and all mail containers being tested.
 Data collectors did not properly identify, isolate, and
                                                                      3           11             0            1
 capture mail to be sampled/tested in ODIS-RPW tests.
 Other Observation(s)
 Data collectors did not follow procedures to protect
                                                                      2           13             7           10
 data integrity and data collection equipment.
Source: FY 2012 review results and prior statistical test capping reports.
*We are showing testing errors and observation reported this year and the years they were previously reported in our
annual fiscal year capping reports.




                                                          11
Statistical Tests for Fiscal Year 2012                            FT-MA-13-009



                              Appendix C: Management's Comments




                                             12
Statistical Tests for Fiscal Year 2012        FT-MA-13-009




                                         13
